                                        July 31, 2000

                                        WILLIAM J. HENDERSON
                                        POSTMASTER GENERAL,
                                         CHIEF EXECUTIVE OFFICER

                                        SUBJECT:          Interim Report - Economic Value Added
                                                          Variable Pay Program
                                                          (Report Number LB-AR-00-001)

                                        This interim report is issued as part of our overall review of
                                        the economic value added variable pay program (EVA©1),
                                        (Project Number 00EA012LM001). We are continuing to
                                        analyze the economic value added formula and its
                                        application. After reviewing projected incentives for the
                                        current year, we believe the economic value added formula
                                        may permit incentives to postal executives that could
                                        negatively impact public perceptions of the Postal Service.
                                        We believe the potential risk posed by this issue warrants
                                        immediate attention.

Results in Brief                        Economic value added variable pay program incentives as a
                                        percentage of net income have increased annually from
                                        16 percent of net income in fiscal year (FY) 1996 to an
                                        estimated 325 percent of net income in FY 2000.

                                        The Postal Service is forecasting the lowest net income,
                                        $100 million, since the inception of the economic value
                                        added program. At the same time, the Postal Service has
                                        requested a postal rate increase and is considering a
                                        reduction in workforce. However, as currently configured,
                                        the economic value added formula may still permit
                                        executives to receive significant economic value added
                                        incentives as a result of current year performance.

                                        We recognize that when the economic value added variable
                                        pay program was developed, management and the
                                        Governors were aware that economic value could be

1               ©
    Copyright       1999 Stern Stewart & Co. All rights reserved.
Economic Value Added                                                          LB-AR-00-001
 Variable Pay Program


                        created and resulting incentive payments could occur even
                        in periods of declining net income.

                        However, indexing operating revenues for the purpose of
                        calculating incentives has allowed the economic value
                        added incentive funding pool to increase during a period of
                        declining net income and goal achievement.

                        We also recognize the economic value added formula is
                        based on the attainment of a number of goals, only one of
                        which is net income. However, net income is arguably the
                        most visible and objective measure of Postal Service
                        performance, particularly to the general public and rate-
                        paying customers. When economic value added incentives
                        exceed net income, management increases the risk that the
                        public will perceive that Postal Service officials do not place
                        appropriate emphasis on achievement of financial goals.
                        We recommend the postmaster general advise the
                        Compensation Committee of the Board of Governors on the
                        trends of economic value added payments, goal attainment,
                        and net income. In addition, to mitigate the risk of negative
                        public perception, we recommend that alternatives to the
                        current projected economic value added payout be
                        considered and presented to the Compensation Committee.

                        Management agreed with our recommendation to advise the
                        Compensation Committee on trends, however,
                        management disagreed with our recommendation to
                        consider developing an alternative to the current projected
                        economic value added payout. Management comments, in
                        their entirety, are included in Appendix B.

Background
             The Postal Service implemented the economic value added
                        variable pay program in FY 1996. It is a group incentive
                        based on an economic value added financial measure
                        developed by the Postal Service. Approximately 84,000
                        employees in the Postal Career Executive Service and
                        executive and administrative schedule participate in the
                        program. Participants receive percentage-of-salary
                        bonuses based on the achievement of performance targets
                        established under the three voices of CustomerPerfect!
                        (Voice of the Customer, Voice of the Employee, and Voice
                        of the Business) approved by the Board of Governors. The
                        incentives earned are credited to individual reserve
                        accounts maintained by the Postal Service. Each




                                          2
Economic Value Added                                                                     LB-AR-00-001
 Variable Pay Program


                                    December, participants receive lump-sum distributions of
                                    33 percent of the reserve account balances.
                                    In FY 1998, the Postal Service established FY 1997 as the
                                    base-year for the purposes of calculating the national
                                    economic value added financial measure. As a result,
                                    management adjusts operating revenues for the effects of
                                    inflation and rate case increases. The Postal Service
                                    calculates the national economic value added based on a
                                    formula illustrated at Appendix A.

                                    This formula yields an indexed national economic value
                                    added figure that management uses as the basis to
                                    determine the variable pay program incentive pool. For
                                    FY 2000, the incentive pool is funded with 65 percent of the
                                    first $400 million of indexed national economic value added
                                    plus 25 percent of any additional amount. To illustrate, an
                                    indexed national economic value added of $1 billion would
                                    yield an incentive pool totaling $410 million ($400 million
                                    times 65 percent plus $600 million times 25 percent).

                                    To ensure a balanced focus on the three voices of the
                                    Postal Service—Customers, Employees, and Business—
                                    distributions from the incentive pool are based equally
                                    (1/3 each) on each organizational unit2 achieving
                                    performance targets established annually for the indicators
                                    under the three voices of Customer Perfect!. If all targets
                                    pertaining to each voice are met, participants earn
                                    100 percent of their incentive. For each target not met,
                                    incentives are reduced by the weight for that target.

                                    Voice of Customer targets are based on achieving on-time
                                    delivery of external First-Class and Priority Mail. Voice of
                                    Employee targets are based on the results of facility, safety,
                                    and health evaluations, receipt of favorable responses to
                                    employee surveys, and reductions in the rate of lost
                                    workday injuries. Voice of Business targets are established
                                    based on achieving specified levels of national net income
                                    (for FY 2000, the target was $100 million) and productivity
                                    improvements over thresholds established by management.

                                    When participants are unable to achieve established
                                    targets, incentives are reduced by the weight given to the
                                    particular target. For instance, national net income makes

2
    Postal Service Headquarters, area office, and performance cluster.




                                                           3
Economic Value Added                                                                          LB-AR-00-001
 Variable Pay Program


                                   up one-half of the one-third weight given to Voice of
                                   Business targets for headquarters and area office
                                   participants. Inability to achieve this target would reduce
                                   incentives for these participants by 16.7 percent, or
                                   approximately $68 million (using the indexed national
                                   economic value added in the example above).

Objective, Scope, and The overall objective of the ongoing audit is to determine if
Methodology           the economic value added variable pay program is
                      effectively managed. The specific objective of this portion of
                      our review was to evaluate the relationship of economic
                      value incentives to achievement of related goals, including
                      net income. We met with personnel at Postal Service
                      Headquarters, Management Associations, and Unions, and
                      analyzed financial information pertaining to the program.
                      We conducted this portion of the audit between April and
                      July 2000 in accordance with generally accepted
                      government auditing standards and included tests of
                      internal controls as were considered necessary under the
                      circumstances. We discussed our conclusions and
                      observations with appropriate management officials and
                      included their comments, where appropriate.

Economic Value                     Economic value added variable pay program incentives as a
Added Incentives as                percentage of net income have increased annually since
a Percentage of Net                inception. As depicted by the chart below, incentives have
Income                             risen from 16 percent of net income in FY 1996 to an
                                   estimated3 325 percent of net income in FY 2000.

                                                  Economic Value Added Incentives
                                                   as a Percentage of Net Income
                                                            (in millions)

                                                                                              % Net
                                          FY            Net Income            Incentive
                                                                                             Income
                                         1996                 $1,567             $252          16%
                                         1997                 $1,264             $302          24%
                                         1998                 $ 550              $266          48%
                                         1999                 $ 363              $256          71%
                                         20004                $ 100              $325         325%



3
    Based on projections as of accounting period 07 and goal accomplishment of 60 percent.
4
    Estimate as of accounting period 07.




                                                          4
Economic Value Added                                                                                 LB-AR-00-001
 Variable Pay Program



                                    For FY 2000, the Postal Service is forecasting the lowest
                                    net income since the inception of the economic value added
                                    program, $100 million. At the same time, the Postal Service
                                    has requested a postal rate increase and is considering a
                                    reduction in workforce. However, as currently configured,
                                    the economic value added formula may still yield significant
                                    incentives for the current year. Postal Service net income
                                    has declined while incentives have remained relatively
                                    stable, providing the appearance that incentives are not
                                    clearly linked to Postal Service financial performance:


                                         Economic Value Added Incentives

                                            Compared with Net Income


                                                       2000

           Net Income                                  1500
                                       (in millions)




           Incentive                                   1000

                                                        500

                                                          0
                                                                1996    1997    1998         1999    2000
                                                                               Fiscal Year




                                    Similarly, comparing incentives earned since 1998 with
                                    economic value added goal attainment percentages makes
                                    it appear declining goal achievement has little impact on the
                                    amount of incentive earned:

                                                                         EVA Goal               Incentive
                                                         FY
                                                                       Achievement %             Earned
                                                        1998                90%                $266 Million
                                                        1999                80%                $256 Million
                                                        20005               60%                $325 Million

                                    The increase in the percentage of incentives to net income
                                    results primarily from the Postal Service’s decision to index
                                    operating revenues to the base year of FY 1997. Indexing
5
    Estimate as of accounting period 07.




                                                                   5
Economic Value Added                                                                            LB-AR-00-001
 Variable Pay Program


                                    has allowed the national economic value added figure used
                                    to compute the incentive funding pool to increase during a
                                    period of declining net income. The inflation adjustment’s
                                    impact on the indexed national economic value added is
                                    provide below:

                                          Revenue
                                                             FY 1998          FY 1999          FY 20006
                                       Adjustments
                                    + Inflation            $973 Million     $ 2.4 Billion    $ 4.2 Billion
                                    - Rate Increase         ( 74 Million)    (1.3 Billion)    (1.9 Billion)
                                    Net Adjustment         $899 Million     $ 1.1 Billion    $ 2.3 Billion

                                    Indexed Nat. EVA       $512 Million     $552 Million     $ 1.5 Billion

                                    As portrayed above, in no year since indexing was initiated
                                    has there been a positive economic value added prior to the
                                    inflation adjustment.

                                    We recognize the economic value added formula is based
                                    on the attainment of a number of goals, only one of which is
                                    net income (16.7 percent of incentive). However, net
                                    income is perhaps the most visible and objective measure
                                    of Postal Service performance--particularly to the general
                                    public and rate paying customers. Therefore, when
                                    financial goals are not achieved or economic value added
                                    incentives exceed net income, management increases the
                                    risk the public will perceive that Postal Service officials do
                                    not place appropriate emphasis on achieving financial
                                    goals.

Audit Comment
                      Following initial disclosure of our concerns to senior Postal
                                    Service management, we were advised the Postal Service
                                    is considering a reduction in the inflation factor used in
                                    computing the national economic value added financial
                                    measure from 6.7 percent to 5.9 percent. In addition,
                                    management revised the estimated goal attainment from
                                    60 percent to 43 percent. Implementation of these changes
                                    would decrease the estimated FY 2000 incentive from
                                    $325 million to $180 million. We are continuing to evaluate
                                    the economic value added formula and may further address
                                    this issue in our final report on the program.




6
    Estimate as of accounting period 07.




                                                       6
Economic Value Added                                                        LB-AR-00-001
 Variable Pay Program




Recommendations         We offer the following recommendations:

                        The postmaster general should:

                        1.	 Advise the Compensation Committee of the Board of
                            Governors on the trends of economic value added
                            payments, goal attainment, and net income presented in
                            this report.

                        2.	 Consider developing alternatives to the current projected
                            economic value added payout to mitigate the risk of
                            negative public perception and presenting these
                            alternatives to the Compensation Committee of the
                            Board of Governors.

Management's            Management concurred with the first recommendation and
Comments                on July 10, 2000, advised the full Board of Governors on the
                        trends of economic value added payments, goal attainment,
                        and net income presented in the report. However,
                        management disagreed with the second recommendation
                        and stated that they feel the present economic value added
                        system is sound and does not require significant revision.

Evaluation of           Management's comments to recommendation 1 are
Management's            responsive and addressed the issue raised in the finding.
Comments                Management's comments to recommendation 2 are not
                        responsive. However, since we are continuing our review of
                        the economic value added program, we will defer resolution
                        of this recommendation until after the audit is completed.

                        We appreciate the cooperation and courtesies provided by
                        your staff during the review. If you have any questions,
                        please contact Joyce Hansen or me at (703) 248-2300.



                        Billy Sauls
                        Assistant Inspector General
                         for Oversight and Business Evaluations




                                          7
Economic Value Added                                   LB-AR-00-001
 Variable Pay Program



                        cc: Governors
                            John M. Nolan
                            Richard J. Strasser, Jr.
                            Patrick R. Donahoe
                            Donna M. Peak
                            Yvonne D. Maguire
                            John R. Gunnels




                                          8
Economic Value Added                                                         LB-AR-00-001
 Variable Pay Program


                                    APPENDIX A.

                           ILLUSTRATION OF NATIONAL
                        ECONOMIC VALUE ADDED FORMULA

   Operating Revenue                     $xx,xxx,xxx,xxx

   Less: Rate Increases                 -$ x,xxx,xxx,xxx

   Plus: Inflation Adjustment           +$ x,xxx,xxx,xxx

   Indexed Operating Revenue                                          $xx,xxx,xxx,xxx

   Expenses                                                           $xx,xxx,xxx,xxx

   +/- Economic Adjustments              $       xxx,xxx,xxx

   EVA Expenses                                                  -$xx,xxx,xxx,xxx

   Indexed Net Operating Income                                       $ x,xxx,xxx,xxx

   Cost of Capital                                               -$ x,xxx,xxx,xxx

   Indexed EVA (National EVA)                                         $ x,xxx,xxx,xxx


Note. The formula depicted above is for illustration purposes only.




                                             9
Economic Value Added                                 LB-AR-00-001
 Variable Pay Program


                 APPENDIX B. MANAGEMENT’S COMMENTS




                                10
Economic Value Added          LB-AR-00-001
 Variable Pay Program




                        11

Economic Value Added          LB-AR-00-001
 Variable Pay Program




Major Contributors




                        12

